      Department of Homeland Security





      Science and Technology Directorate’s Management
        Letter for FY 2012 DHS Consolidated Financial
                         Statements Audit




OIG-13-69                                      April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      APR 5 2013

MEMORANDUM FOR:              Richard Williams
                             Director of Finance and Budget
                             Science and Technology Directorate

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Science and Technology Directorate’s Management Letter
                             for FY 2012 DHS Consolidated Financial Statements Audit

Attached for your information is our final report, Science and Technology Directorate’s
Management Letter for FY 2012 DHS Consolidated Financial Statements Audit. This
report contains observations related to internal control deficiencies that were not
required to be reported in the Independent Auditors’ Report on DHS’ FY 2012 Financial
Statements and Internal Control over Financial Reporting. Internal control deficiencies
that are considered significant deficiencies were reported, as required, in the
Independent Auditors’ Report, dated November 14, 2012, which was included in the DHS
FY 2012 Annual Financial Report. We do not require management’s response to the
recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’
FY 2012 financial statements and is responsible for the attached management letter
dated March 12, 2013, and conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security Science & Technology Directorate
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.

Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the FY
2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.

The Science & Technology Directorate (S&T) is a component of DHS. We noted certain matters, related
to S&T, that are summarized in the Table of Financial Management Comments on the following pages,
involving internal control and other operational matters that are less severe than a material weakness or a
significant deficiency, and consequently are reported separately to the Office of Inspector General (OIG)
and S&T management in this letter. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies. The disposition of each internal control deficiency identified during our
FY 2012 audit – as either reported in our Independent Auditors’ Report, or herein – is presented in
Appendix A. The status of internal control deficiencies identified during our FY 2011 audit is presented in
Appendix B.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and S&T’s management, the DHS OIG, the U.S. OMB,
the U.S. Congress, and the Government Accountability Office, and is not intended to be and should not be
used by anyone other than these specified parties.

Very truly yours,
                                 Science & Technology Directorate
                             Table of Financial Management Comments
                                        September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


 Comment
 Reference   Subject                                                                             Page

FMC 12-01    Federal Financial Management System (FFMS) to Purchase Request Information           2
             System (PRISM) Reconciliation
FMC 12-02    Inadequate Controls and Procedures over Recording and Reporting Personal             2
             Property
FMC 12-03    Inadequate Internal Controls over Reporting of Construction In Progress (CIP) and    2
             Buildings
FMC 12-04    Inadequate Documentation of Inventory Procedures                                     3
FMC 12-05    Inadequate Unfilled Customer Order (UCO) Review                                      3
FMC 12-06    Inadequate Policies and Procedures for Identifying Heritage Assets                   4


APPENDIX
 Appendix    Subject                                                                             Page

    A        Crosswalk – Financial Management Comments to Active Notices of Finding and           5
             Recommendation (NFRs)
    B        Status of Prior Year NFRs                                                            6




                                                   1

                                  Science & Technology Directorate
                                  Financial Management Comments
                                         September 30, 2012


FMC 12-01 – Federal Financial Management System (FFMS) to Purchase Request Information
System (PRISM) Reconciliation (NFR No. S&T 12-01)

       Science & Technology Directorate (S&T) uses PRISM–a procurement module outside of FFMS–
       to initiate obligations. Since PRISM does not interface with the general ledger (GL) system,
       FFMS, S&T financial management personnel manually record obligations from PRISM into
       FFMS. As a result, there is a risk that obligations initiated in PRISM are not completely or
       accurately recorded in FFMS.

       S&T does not have policies and procedures in place to reconcile obligation information from
       PRISM to FFMS.

       Recommendation:
       We recommend that S&T develop and implement policies and procedures to reconcile obligation
       data between FFMS and PRISM.

FMC 12-02 – Inadequate Controls and Procedures over Recording and Reporting Personal
Property (NFR No. S&T 12-02)

       S&T oversees six national research laboratories and contracts with outside entities to manage
       certain functions of the laboratories. Contractors purchase laboratory equipment and are
       reimbursed by S&T for the expense. S&T reports the equipment as property, plant and
       equipment (PP&E) based on its capitalization requirements.

       During the walkthrough of the S&T property process, we noted that there is a lack of supervisory
       review controls to verify the accuracy of the information that is recorded into Sunflower Asset
       Management System (SAMS). S&T performs occasional inspections, but there is no consistent
       review of information at the point at which it is recorded into SAMS.

       During interim audit procedures over personal property, we noted that S&T recorded the addition
       of an item of scientific equipment in fiscal year (FY) 2012 that was received in FY 2011. The
       equipment had been purchased by the contractor for National Biodefense Analysis and
       Countermeasures Center, who was subsequently reimbursed by S&T.

       Recommendation:
       We recommend that S&T develop and implement internal controls to identify and record
       additions to PP&E in a timely manner and that the procedures include consideration for S&T
       assets purchased or held by contractors.

FMC 12-03 – Inadequate Internal Controls over Reporting of Construction In Progress (CIP) and
Buildings (NFR No. S&T 12-03)

       S&T’s Office of National Laboratories contracts with Federal Law Enforcement Training Center
       (FLETC) to construct buildings, structures and leasehold improvements. Invoices are submitted
       along with a summary checklist which certifies that (1) only capitalizable PP&E costs have been
       captured, (2) contract identification numbers have been provided, (3) supporting documentation
       such as invoices have been provided or maintained for audit and review, (4) both direct and
       indirect PP&E costs have been captured for the quarter, (5) contract modifications have been


                                                   2

                                  Science & Technology Directorate
                                  Financial Management Comments
                                         September 30, 2012


      included, and (6) S&T asset management personnel have been informed of any contract close­
      outs. The checklist is prepared by the project manager and reviewed by S&T asset management
      personnel and S&T Financial Operations. Immigration and Customs Enforcement (ICE) Office of
      Financial Management (OFM) provides financial reporting services for S&T and records S&T’s
      asset additions.

      During testwork over a sample of eight real property additions as of June 30, 2012, for all sample
      items, we noted that the CIP checklist was not reviewed and approved by all required supervisors
      until after the addition was recorded into GL by ICE OFM.

      Recommendation:
      We recommend that S&T strengthen its internal controls to identify and record additions to
      construction in progress and buildings. We recommend that S&T consistently use the CIP
      checklist to track and record construction costs and that the supervisory review of the checklist
      occurs before entry into the GL.

FMC 12-04 – Inadequate Documentation of Inventory Procedures (NFR No. S&T 12-04)

      S&T performs an annual inventory of all capitalizable and accountable personal property. S&T
      Office of the Chief Administrative Officer is responsible for issuing guidance related to the
      annual inventory and monitoring and reporting the results. Property custodians are responsible
      for the day-to-day accountability for assets and, in order to ensure segregation of duties, are
      prohibited from performing the inventory for assets for which they are responsible.

      We reviewed seven inventory certification letters for S&T and noted that the documentation
      provided for five sites was not adequate to determine if there was segregation of duties as
      required by the DHS Personal Property Asset Management Manual.

      Recommendation:
      We recommend that S&T implement policies and procedures to enforce and document adequate
      segregation of duties during the annual inventory.

FMC 12-05 – Inadequate Unfilled Customer Order (UCO) Review (NFR No. S&T 12-05)

      During our testwork over the September 30, 2012 UCO balances, we selected 15 open balances
      and noted the following:
      •	 One sample item was a duplicate agreement for $4.8 million that was input into FFMS in
          May 2012 and not identified to be removed until after September 30, 2012.
      •	 One sample item was a reimbursable agreement in which the customer agency provided S&T
          with two year funds (09/10). At the end of FY 2012, the carryover balance was not properly
          reduced, and as a result, the amount obligated on the corresponding undelivered order (UDO)
          exceeded the UCO.

      Recommendations:
      We recommend that S&T:
      •	 Strengthen its quarterly UCO review procedures to adequately review and adjust UCO
         balances with customer agencies.



                                                   3

                                  Science & Technology Directorate
                                  Financial Management Comments
                                         September 30, 2012


       •	 Improve communication between financial management and field office personnel so that the
          conclusions about each balance are clearly documented.

FMC 12-06 – Inadequate Policies and Procedures for Identifying Heritage Assets (NFR No. S&T
12-06)

       We determined that controls are not properly designed to identify and report heritage assets.

       Recommendations:
       We recommend that S&T:
           •	 Strengthen its policies and procedures related to the review for heritage assets.
           •	 Improve communication between financial managers and field office personnel to
              timely identify and report heritage assets.




                                                   4

                                                                                                             Appendix A
                                      Science & Technology Directorate
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2012


                                                                                                  Disposition1
                                                                                                 IAR                 FMC
NFR No.       Description                                                               MW        SD        NC       No.
              Federal Financial Management System (FFMS) to Purchase Request
12-01                                                                                                               12-01
              Information System (PRISM) Reconciliation
              Inadequate Controls and Procedures over Recording and Reporting
12-02                                                                                                               12-02
              Personal Property
              Inadequate Internal Controls over reporting of Construction in Progress
12-03                                                                                                               12-03
              (CIP) and buildings
12-04         Inadequate Documentation of Inventory Procedures                                                      12-04
12-05         Inadequate Unfilled Customer Order (UCO) Review                                                        12-05
12-06         Inadequate Policies and Procedures for Identifying Heritage Assets                                    12-06

1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 14, 2012
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                              5

                                                                                                                   Appendix B
                                           Science & Technology Directorate
                                               Status of Prior Year NFRs
                                                  September 30, 2012


                                                                                                  Disposition1
    NFR                                                                                                       Repeat
            Description                                                                           Closed2
    No.                                                                                                       (2011 NFR No.)
            Inadequate Internal Controls over Reporting of Construction in Progress (CIP) and
    11-01                                                                                                     S&T 12-01
            Buildings
    11-02   Untimely De-obligation of Undelivered Orders (UDOs)                                       X
    11-03   Inadequate Controls over New Hire Ethics Briefings                                        X
            Insufficient Internal Controls to Ensure Timely Reporting of Internal Use Software
    11-04                                                                                             X
            (IUS) in Development and Personal Property

1
 KPMG was engaged to perform an audit over the DHS balance sheet as of September 30, 2012, and the related statements of net
cost, changes in net position and custodial activity, and combined statement of budgetary resources for the year then ended. In
addition, we were engaged to followup on the status of all active NFRs that supported significant deficiencies reported in our FY
2011 Independent Auditors’ Report.
2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                6

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Science and Technology Directorate

   Under Secretary
   Director of Finance and Budget
   Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-69
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
